U.S. DEPARTMENT OF JUSTICE

 ANNUAL SPECIAL-PURPOSE

  FINANCIAL STATEMENTS

     FISCAL YEAR 2010

       U.S. Department of Justice

     Office of the Inspector General

              Audit Division


          Audit Report 11-04

           December 2010

This page intentionally left blank. 

                   U.S. DEPARTMENT OF JUSTICE

                    ANNUAL SPECIAL-PURPOSE

                     FINANCIAL STATEMENTS

                         FISCAL YEAR 2010


                  OFFICE OF THE INSPECTOR GENERAL

                     COMMENTARY AND SUMMARY


      This audit report contains the Annual Special-Purpose Financial
Statements, also known as the Closing Package Financial Statements, of the
U.S. Department of Justice (Department) for the fiscal years (FY) ended
September 30, 2010, and September 30, 2009. The Office of the Inspector
General (OIG) performed the Department’s audit in accordance with U.S.
generally accepted government auditing standards. The audit resulted in an
unqualified opinion on the FY 2010 special-purpose financial statements. An
unqualified opinion means that the financial statements present fairly, in all
material respects, the financial position and the results of the entity’s
operations in conformity with U.S. generally accepted accounting principles.
The FY 2009 special-purpose financial statement audit was performed by
KPMG, LLP and also resulted in an unqualified opinion (OIG Report No. 10­
06).

      The Department’s special-purpose financial statements were prepared
in accordance with Volume I, Part 2 – Chapter 4700 of the U.S. Department
of the Treasury’s Treasury Financial Manual (TFM). Their purpose is to assist
the U.S. Department of the Treasury in preparing the U.S. Government
Financial Report, by reclassifying the Department’s general-purpose financial
statements into a standard format that will be consolidated with other
federal agencies, and reporting the Department’s intragovernmental
balances by federal agency to facilitate elimination of agency to agency
transactions.

      For FY 2010, the Independent Auditors’ Report on Special-Purpose
Financial Statements did not identify any significant deficiencies in internal
control over financial reporting or instances of non-compliance with laws and
regulations.

      The OIG is not independent with respect to amounts pertaining to OIG
operations that are presented in the financial statements. However, the
amounts included for the OIG are not material to the Department’s financial
statements, and the OIG is organizationally independent with respect to all
other aspects of the Department’s activities.
